No. 19A-___
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES DEPARTMENT OF HEALTH AND HUMAN SERVICES,
ET AL., APPLICANTS
v.
STATE OF CALIFORNIA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT, via email and first-class mail, postage prepaid, this
8th day of January, 2020.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 8, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19AUNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES, ET AL.
STATE OF CALIFORNIA, ET AL.
KARLI EISENBERG
DEPUTY ATTORNEY GENERAL
OFFICE OF THE CALIFORNIA ATTORNEY GENERAL
1300 I STREET
SUITE 125
SACRAMENTO, CA 95814
916-324-5360
KARLI.EISENBERG@DOJ.CA.GOV
KEVIN H. THERIOT
ALLIANCE DEFENDING FREEDOM
15100 N. 90TH STREET
SCOTTSDALE, AZ 85260
480-444-0020
KTHERIOT@ADFLEGAL.ORG
MARK L. RIENZI
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 NEW HAMPSHIRE AVENUE, NW
SUITE 700
MRIENZI@BECKETLAW.ORG

